                 Sensitive Data Sent Via Email Is Adequately
                Protected, but Controls Could Be Streamlined

                                  February 2005

                       Reference Number: 2005-20-038




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                         February 22, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Sensitive Data Sent Via Email Is Adequately
                             Protected, but Controls Could Be Streamlined
                             (Audit # 200420022)

      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      controls to protect sensitive data sent via email. The IRS routinely works with sensitive
      but unclassified data such as taxpayers’ personal financial data and employees’ data.
      Most managers and employees have access to email and can send sensitive data to
      other employees to expedite their work. Including sensitive data in email poses certain
      risks. Specifically, email, if not properly encrypted, can be intercepted by unauthorized
      persons, and employees can inadvertently disclose sensitive data by sending email to
      the wrong recipient. The overall objective of this review was to determine whether the
      IRS is adequately protecting sensitive data sent via email.
      In summary, the IRS has controls in place to adequately protect sensitive data sent via
      email. The IRS uses features available on its email system to automatically encrypt
      emails. Encryption is a method of “scrambling” text or data so that it is unreadable.
      Software on each employee’s computer encrypts data prior to moving the data across
      network lines. Emails transmitted from one IRS building to another IRS building are
      encrypted at an even higher level than emails transmitted within an IRS building.
      Emails forwarded outside the IRS network (e.g., to taxpayers or employees’ home
      computers) are not encrypted. However, we found no instances in our tests of sensitive
      emails being forwarded outside the IRS network.
      The IRS established its Secure Messaging program in June 2002 to ensure that emails
      containing sensitive data sent within IRS buildings were encrypted at the same level as
      emails sent between IRS buildings. Secure Messaging also keeps messages encrypted
      while stored on servers, creates employee awareness to protect sensitive data, and
                                           2

gives the IRS experience that may be beneficial if similar technology is ever used for
broader purposes. However, Secure Messaging has several disadvantages. Primarily,
it is difficult for management to enforce its use.
When the IRS implemented Secure Messaging in June 2002, the goal was to have
100 percent of all employees enrolled in the program by September 30, 2002.
However, as of September 2004, 2 years into the program, IRS records indicated that
only 76 percent of the nearly 82,000 email mailboxes had been enrolled. Since both the
sender and receiver of an email must be enrolled in Secure Messaging for it to work, its
effectiveness has been limited. Additionally, IRS employees, even those enrolled in the
Secure Messaging program, are not using it consistently. In our sample, 43 percent of
the mailboxes contained sensitive data that had not been encrypted with Secure
Messaging as required.
Secure Messaging also requires additional expenditures. It increases the size of
email messages which places more demands on the IRS telecommunications system
and computer storage capabilities. In addition to the $350,000 spent to start up the
original Secure Messaging program, the IRS is incurring ongoing costs to administer it.
The program requires dedicated servers and 5 part-time employees at a cost of
$156,000 per year to manage the hardware and software.
At your request, we evaluated Homeland Security Presidential Directive (HSPD) 12,
dated August 27, 2004, entitled “Policy for Common Identification Standard for Federal
Employees and Contractors,” and determined that this Directive has no impact on
Secure Messaging.
We recommended the Chief Information Officer (CIO) coordinate with business unit
owners to reevaluate and weigh the costs and benefits of continuing the Secure
Messaging program. If the CIO and the business unit owners determine that the
program should continue, they should ensure all IRS employees who send sensitive
data via email are enrolled in the Secure Messaging program and comply with its
procedures. In addition to continuing awareness training efforts, first-line managers
should periodically review employees’ use of Secure Messaging to ensure compliance.
Management’s Response: The CIO agreed with two of the three recommendations in
this report. The CIO will promote employee awareness of the Secure Messaging
program through the Modernization and Information Technology Services (MITS)
organization’s website and other communication channels as needed. The Mission
Assurance and Security Services (MA&SS) organization will incorporate Secure
Messaging within the annual online computer security awareness training required for
all employees. The MA&SS and MITS organizations plan to issue a joint memo
mandating the enrollment of all employees in the Secure Messaging program, and the
MITS organization will work with the business units to develop a cost-effective way of
assessing compliance. The CIO did not agree to coordinate with business owners to
reevaluate and weigh the costs and benefits of the Secure Messaging program as we
recommended. Citing HSPD 12, dated August 27, 2004, entitled “Policy for Common
Identification Standard for Federal Employees and Contractors,” the CIO will continue
                                          3

using Secure Messaging as a key component in the IRS’ transition to implement Public
Key Infrastructure as a logical access control. The CIO also questioned our sampling
methodology. Management’s complete response to the draft report is included as
Appendix IV.
Office of Audit Comment: We believe the conclusions and recommendations in this
report are valid. Based on our review of HSPD 12 and interviews with Federal
Government experts on the subject, we believe HSPD 12 is not relevant to Secure
Messaging. Regarding our sampling methodology, we selected a random sample of
60 mailboxes and reviewed approximately 21,000 emails in our review and reached
conclusions based on that analysis. Our sample was clearly large enough to support
our conclusion that IRS employees are not complying with Secure Messaging
procedures. A statistical sample was not necessary because we did not intend to
project our results to the entire population of IRS emails. We made the
recommendation to evaluate costs and benefits because we believe the IRS could save
costs and reduce the impact on managers and employees by not requiring Secure
Messaging. While we still believe our recommendation is worthwhile, we do not intend
to elevate our disagreement concerning it to the Department of the Treasury for
resolution.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
Assistant Inspector General for Audit (Information Systems Programs) at
(202) 622-8510.
                        Sensitive Data Sent Via Email Is Adequately Protected,
                                  but Controls Could Be Streamlined




                                                  Table of Contents


Background ............................................................................................... Page 1
Controls Are in Place to Protect Sensitive Data Sent Via Email................ Page 2
The Encryption of Emails Could Be Streamlined....................................... Page 2
         Recommendation 1: .........................................................................Page 5
         Recommendations 2 and 3: .............................................................Page 6

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
             Sensitive Data Sent Via Email Is Adequately Protected,
                       but Controls Could Be Streamlined

                             The Internal Revenue Service (IRS) routinely works with
Background
                             sensitive but unclassified (SBU) data such as taxpayers’
                             personal financial data, law enforcement information, and
                             employees’ data. Most managers and employees have
                             access to email and can send sensitive data to other
                             employees to expedite their work. Including sensitive data
                             in email poses certain risks. Specifically, email, if not
                             properly encrypted, can be intercepted by unauthorized
                             persons, and employees can inadvertently disclose sensitive
                             data by sending emails to the wrong recipient.
                             The National Institute of Standards and Technology (NIST)1
                             publication Guidelines on Electronic Mail Security
                             (NIST SP 800-45) recommends specific levels of encryption
                             for Federal Government organizations to protect email
                             during the transmission of messages. The NIST guidelines
                             also recommend encrypted messages be stored in their
                             encrypted format. Treasury Directive 85-01, dated
                             June 12, 2003, directs all bureaus to provide appropriate
                             security for their email systems in accordance with
                             NIST SP 800-45 guidance.
                             The IRS established the Secure Messaging program in
                             June 2002 to address the NIST guidelines and its concerns
                             with sending sensitive data via email. Secure Messaging
                             allows users to encrypt messages so only recipients who
                             have been granted the secure messaging capability can
                             decrypt and read the message and any attachments.
                             At the request of the IRS’ Chief Information Officer (CIO),
                             we evaluated Homeland Security Presidential Directive
                             (HSPD) 12, dated August 27, 2004, entitled “Policy for
                             Common Identification Standard for Federal Employees
                             and Contractors” to determine if it had an impact on
                             Secure Messaging. We also reviewed the draft Federal
                             Information Processing Standards Publication 201, entitled
                             “Personal Identity Verification (PIV) for Federal Employees
                             and Contractors,” and attended a public forum on HSPD 12.



                             1
                               The NIST is a non-regulatory Federal agency within the United States
                             Commerce Department’s Technology Administration. It promotes the
                             United States economy and public welfare by providing technical
                             leadership for the nation’s measurement and standards infrastructure.
                                                                                            Page 1
                    Sensitive Data Sent Via Email Is Adequately Protected,
                              but Controls Could Be Streamlined

                                    Our analysis determined that this Directive has no impact on
                                    Secure Messaging.
                                    This review was performed in the Office of the CIO at the
                                    IRS National Headquarters in Washington, D.C., during the
                                    period April through September 2004. The audit was
                                    conducted in accordance with Government Auditing
                                    Standards. Detailed information on our audit objective,
                                    scope, and methodology is presented in Appendix I. Major
                                    contributors to the report are listed in Appendix II.
                                    Data sent from employee to employee is protected across
 Controls Are in Place to Protect
                                    the IRS network
 Sensitive Data Sent Via Email
                                    The IRS uses features available on its email system to
                                    automatically encrypt emails. Encryption is a method of
                                    “scrambling” text or data so that it is unreadable. Software
                                    on each employee’s computer encrypts data prior to moving
                                    the data across network lines. The text or data is then
                                    decrypted, or unscrambled, on the receiver’s computer so it
                                    is again readable. Emails sent between IRS buildings are
                                    encrypted at an even higher level than emails sent within an
                                    IRS building.
                                    We found no evidence that employees were sending
                                    emails containing SBU data outside the IRS
                                    Emails sent outside the IRS wide area network (e.g., to
                                    taxpayers or employees’ home computers) are not encrypted
                                    and, as a result, the IRS prohibits this practice. We
                                    judgmentally selected mailboxes of 60 employees who
                                    would likely work with sensitive data. To accomplish this,
                                    we selected employees that work in five of the IRS’
                                    business units: the Appeals function, Agency-Wide Shared
                                    Services, Small Business/Self-Employed Division, Large
                                    and Mid-Size Business Division, and Tax Exempt and
                                    Government Entities Division. In our review of emails sent
                                    from these mailboxes over a 14-week period from
                                    April 1, 2004, to July 14, 2004, we did not identify any
                                    emails containing SBU data that were sent outside the IRS
                                    network.
                                    The IRS established its Secure Messaging program in
The Encryption of Emails Could
                                    June 2002 to enhance the encryption of emails containing
Be Streamlined
                                    sensitive data. To successfully use Secure Messaging, both
                                    the sender and receiver must enroll in the program. To
                                                                                          Page 2
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined

                enroll, users access a web site so security personnel can
                ensure the user’s computer meets certain security
                configurations.
                Secure Messaging uses Public Key Infrastructure (PKI)
                technology to encrypt emails. PKI technology protects
                messages with a combination of public and private “keys”
                which allows users to encrypt and decrypt the messages.
                Both sender and receiver must be listed on the IRS’ list of
                email addresses to enroll in Secure Messaging.
                To encrypt a message, the sender must select the recipient’s
                name from the IRS’ list of email addresses and also select
                the Secure Messaging option when sending the message.
                To decrypt the message, the recipient must enter a
                previously chosen password that can be used to open all of
                their emails encrypted with Secure Messaging.
                Secure Messaging does provide the IRS with certain
                enhancements. For example:
                    •   The use of Secure Messaging creates an awareness
                        of the need to protect sensitive data when using
                        email.
                    •   Secure Messaging provides the capability to provide
                        the same level of encryption for emails sent within
                        an IRS building as emails sent between IRS
                        buildings. This encryption is effective even if the
                        network encryption fails.
                    •   Secure Messaging keeps messages encrypted while
                        stored on email servers and user workstations.
                        Without Secure Messaging, emails are encrypted
                        only during transmission.
                    •   The Department of the Treasury is exploring
                        potential uses of PKI technology. Using PKI
                        technology in the Secure Messaging program could
                        give the IRS some experience that may be beneficial
                        if PKI technology is ever used for broader purposes.
                While Secure Messaging does enhance encryption, it has
                several disadvantages. Primarily, it is difficult for
                management to enforce its use.


                                                                       Page 3
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined

                When the IRS implemented the Secure Messaging program
                in June 2002, the goal was to have 100 percent of all
                employees enrolled in Secure Messaging by
                September 30, 2002. However, as of September 2004,
                2 years into the program, IRS records showed that only
                62,535 (76 percent) of the 81,913 total email mailboxes
                were enrolled in the Secure Messaging program.
                In addition, management has not ensured employees comply
                with the requirements to encrypt all emails containing
                SBU data. Employees are not always using the Secure
                Messaging encryption process when sending SBU data
                internally.
                We judgmentally selected 60 email mailboxes and reviewed
                messages that were composed between April 1, 2004, and
                July 14, 2004. Our sample of 20,983 emails was comprised
                of 30 employees who were enrolled (12,546 emails) and
                30 employees not enrolled (8,437 emails) in the Secure
                Messaging program.
                We identified 183 unencrypted messages containing SBU
                data in 26 (43 percent) of the 60 mailboxes reviewed. We
                found that 110 (60 percent) of the 183 unencrypted
                messages were in non-enrolled users’ mailboxes. However,
                more than half the employees enrolled in Secure Messaging
                also had unencrypted emails with sensitive data in their
                mailboxes.
                Although the use of Secure Messaging has been mandated
                by the IRS, managers have not provided sufficient attention
                to ensure employee compliance. To enforce the use of
                Secure Messaging, managers would have to periodically
                review email files on employees’ computers to determine if
                they had used Securing Messaging to encrypt sensitive data.
                We recognize this effort could be overly burdensome for
                first-line managers in addition to the other requirements for
                their time.
                Secure Messaging has other disadvantages. For example:
                    •   The added encryption provided by Secure
                        Messaging increases the size of messages. While the
                        impact on a small email message is insignificant, the
                        impact on a large message with attachments can
                        increase the size of the email by 25 to 30 percent.
                                                                      Page 4
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined

                        Consequently, the IRS must use additional network
                        bandwidth for transmission and more storage space
                        on email servers.
                    •   In addition to the $350,000 initially spent to
                        implement the Secure Messaging program, the IRS
                        is incurring ongoing costs to administer it. The
                        program requires dedicated servers and
                        5 part-time employees costing about $156,000 per
                        year to manage the hardware and software. The IRS
                        could potentially put these funds to better use if
                        Secure Messaging were not continued.
                While Secure Messaging provides additional protection
                when using email, the use of this feature requires substantial
                management oversight and associated costs. NIST guidance
                recommends organizations weigh the costs and benefits
                associated with implementing a sound encryption policy.
                To our knowledge, the IRS has not reevaluated the need or
                weighed the costs and benefits for the Secure Messaging
                program since it was implemented in June 2002.

                Recommendations
                The CIO should coordinate with business unit owners to:
                1. Reevaluate and weigh the costs and benefits of
                   continuing the Secure Messaging program.
                Management’s Response: The CIO did not agree with this
                recommendation. The CIO indicated with the issuance of
                HSPD 12, dated August 27, 2004, entitled “Policy for
                Common Identification Standard for Federal Employees and
                Contractors,” all Federal Government agencies are
                mandated to implement PKI as a central component of
                logical access controls. Since Secure Messaging provides a
                useful migration path to PKI, it will remain a key
                component of the IRS’ transition activities. The CIO also
                questioned our sampling methodology.
                Office of Audit Comment: We believe the conclusions
                raised and recommendations in this report are valid. Based
                on our review of HSPD 12 and interviews with Federal
                Government experts on the subject, we believe HSPD 12 is
                not relevant to Secure Messaging. Regarding our sampling
                methodology, we selected a random sample of 60 mailboxes
                                                                       Page 5
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined

                and reviewed approximately 21,000 emails in our review
                and reached conclusions based on that analysis. Our sample
                was clearly large enough to support our conclusion that IRS
                employees are not complying with Secure Messaging
                procedures. A statistical sample was not necessary because
                we did not intend to project our results to the entire
                population of IRS emails. We made the recommendation to
                evaluate costs and benefits because we believe the IRS
                could save costs and reduce the impact on managers and
                employees by not requiring Secure Messaging.
                If the CIO and business unit owners decide to continue the
                Secure Messaging program they should:
                2. Continue awareness training to encourage all IRS
                   employees who send sensitive data via email to enroll in
                   the Secure Messaging program and comply with its
                   procedures.
                Management’s Response: The Modernization and
                Information Technology Services (MITS) organization will
                continue to promote employee awareness. The Mission
                Assurance and Security Service (MA&SS) organization will
                incorporate Secure Messaging with the annual online
                computer security awareness training required for all
                employees.
                3. Require first-line managers to periodically review
                   employees’ use of Secure Messaging to ensure
                   compliance.
                Management’s Response: The MA&SS and MITS
                organizations will issue a joint memo mandating the
                enrollment of all employees in secure messaging. The
                MITS organization will work with the business units to
                develop a cost-effective way of assessing compliance.




                                                                        Page 6
                  Sensitive Data Sent Via Email Is Adequately Protected,
                            but Controls Could Be Streamlined

                                                                                      Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess whether the Internal Revenue Service (IRS) is
adequately protecting sensitive data sent via email. To accomplish this objective, we:
I.     Determined whether the use of Secure Messaging was necessary and effective for
       reducing the risk of sensitive data being intercepted or whether the other levels of
       encryption used by the IRS were adequate.
       A.     We interviewed responsible IRS officials and reviewed policies, laws, and
              standards applicable to Secure Messaging encrypted email, as well as the network
              flow of general and sensitive data.
       B.     We compared these requirements with the encryption levels documented in the
              IRS’ Certification and Accreditation report, local and wide area network
              infrastructure, and software specifications.
       C.     We determined and illustrated the encryption and decryption points in the data
              transmission stream.
       D.     At the request of the IRS’ Chief Information Officer, we evaluated Homeland
              Security Presidential Directive (HSPD) 12, dated August 27, 2004, entitled
              “Policy for Common Identification Standard for Federal Employees and
              Contractors,” reviewed the draft Federal Information Processing Standards
              Publication 201, entitled “Personal Identity Verification (PIV) for Federal
              Employees and Contractors,” and attended a public forum on HSPD 12 to
              determine whether it has any impact on Secure Messaging.
II.    Determined whether Secure Messaging encryption was applied effectively and
       consistently to protect sensitive data sent via email.
       A.     We identified the total number of IRS employee mailboxes and the number
              enrolled in the Secure Messaging program.
       B.     We determined whether IRS employees were sending sensitive data via email
              without using the Secure Messaging feature by selecting a judgmental sample.
              We selected a judgmental sample because we did not intend to project the results
              to all mailboxes.




                                                                                              Page 7
                 Sensitive Data Sent Via Email Is Adequately Protected,
                           but Controls Could Be Streamlined

              We selected mailboxes from specific business units that we believed would have
              the most likelihood of sending emails with sensitive data. From the IRS’ Secure
              Messaging website, we were able to download all IRS email users both enrolled
              and not enrolled in Secure Messaging, a total of 82,439 mailboxes. We separated
              five offices: Appeals, Agency-Wide Shared Services, Small Business/Self-
              Employed Division, Large and Mid-Size Business Division, and the Tax Exempt
              and Government Entities Division. These offices accounted for 34,474
              mailboxes. We selected a random sample of 30 mailboxes from both the enrolled
              and not enrolled users in these offices, for a total of 60 sampled mailboxes. We
              reviewed 20,983 emails sent and received by these employees from April 1, 2004,
              to July 14, 2004.
III.   Determined whether IRS employees were forwarding and/or sending sensitive data via
       email outside the IRS network, either to taxpayers or their own personal computers, by
       reviewing the messages from our sample in Step II. B. and IRS logs of messages sent
       outside the IRS networks.




                                                                                        Page 8
                 Sensitive Data Sent Via Email Is Adequately Protected,
                           but Controls Could Be Streamlined

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Thomas Polsfoot, Audit Manager
David Brown, Senior Auditor
George Franklin, Auditor




                                                                                         Page 9
                 Sensitive Data Sent Via Email Is Adequately Protected,
                           but Controls Could Be Streamlined

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Mission Assurance and Security Services OS:MA
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Assurance Programs OS:MA:AP
Director, Business Systems Development OS:CIO:I:B
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Networks OS:CIO:I:EN
Director, Enterprise Operations Services OS:CIO:I:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                                     Page 10
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined

                                                         Appendix IV


      Management’s Response to the Draft Report




                                                              Page 11
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined




                                                         Page 12
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined




                                                         Page 13
Sensitive Data Sent Via Email Is Adequately Protected,
          but Controls Could Be Streamlined




                                                         Page 14
